MARCH 29, 2010
  REVIEW REPORT




                                                      OFFICE OF AUDITS




      REVIEW OF THE CONSTELLATION PROGRAM’S
        REQUEST TO DISCONTINUE USING THE
          METRIC SYSTEM OF MEASUREMENT




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-10-011 (ASSIGNMENT NO. S-09-010-00)
Final report released by:



       /signed/
Paul K. Martin
Inspector General




Acronyms

DoD          Department of Defense
EO           Executive Order
FY           Fiscal Year
ISS          International Space Station
NIST         National Institute of Standards and Technology
NMI          NASA Management Instruction
NPD          NASA Policy Directive
NPR          NASA Procedural Requirements
OIG          Office of Inspector General
OMB          Office of Management and Budget
OSTP         Office of Science and Technology Policy
PA&E         Program Analysis and Evaluation
SI           International System of Units


                                                              REPORT NO. IG-10-011
MARCH 29, 2010




                                                                                             OVERVIEW

                   REVIEW OF THE CONSTELLATION PROGRAM’S
                     REQUEST TO DISCONTINUE USING THE
                       METRIC SYSTEM OF MEASUREMENT
                                                                                               The Issue

   The Office of Inspector General (OIG) examined the Constellation Program’s 1 draft
   request to reverse its 2-year-old decision to implement the metric system (also known as
   the International System of Units or SI) 2 as its standard system of measurement and
   instead use the U.S. customary system 3 (e.g., feet, pounds, ounces). Our objective was to
   assess the basis for the Constellation Program’s request to NASA’s Chief Engineer for an
   exception to NASA’s policy that requires use of the metric system in Agency programs.
   In addition to examining this specific request, we considered the possible long-term
   impact on other NASA projects and the Agency’s efforts to expand use of the metric
   system if the exception was granted, which appears likely. Details of the review’s scope
   and methodology are in Appendix A.

                                                                                                   Results

   We concluded that the Constellation Program’s request for an exception to using the
   metric system as its standard system of measurement does not clearly meet NASA
   criteria for granting such an exception. In addition, the request does not adequately
   consider the long-term impact of the decision on future NASA projects.

   Specifically, we found that the Program’s draft request for an exception to using the
   metric system does not meet the criteria for exceptions under NASA Policy Directive
   (NPD) 8010.2E “Use of the SI (Metric) System of Measurement in NASA Programs,”
   March 4, 2007 (see Appendix B). The request from Constellation Program officials
   suggests that implementing the metric system is impractical and its use could increase
   risk and threaten mission success. However, we found conflicting documentation
   attesting to the practicality of implementing the metric system as the primary system of

   1
       On February 1, 2010, the President released his proposed fiscal year (FY) 2011 budget for NASA. In
       that budget request, the President proposed cancelling the Constellation Program. While the focus of this
       audit is on the Constellation Program’s specific request for an exception to NASA’s policy requiring use
       of the metric system, the issues discussed in this audit affect other Agency programs and broader policy
       issues.
   2
       International System of Units (abbreviated SI from the French le Système international d'unités) is the
       modern form of the metric system. The terms “metric” and “SI” are used interchangeably in this report.
   3
       The system is also known as the “English,” “British Standard,” and “British Imperial” system of
       measurement.



REPORT NO. IG-10-011
                                                                                               OVERVIEW



     measurement in the Constellation Program. In addition, other Constellation Program
     documentation we reviewed refutes the suggestion that implementing the metric system
     would increase risk in this Program. We also found that neither the Constellation
     Program nor the NASA Chief Engineer has fully assessed the long-term impact on the
     Agency of moving away from use of the metric system.

     We also found that NASA’s written policy directing use of the metric system in Agency
     programs is deficient in several respects. First, NPD 8010.2E does not define the term
     “adds unacceptable risk,” which leads to differing interpretations of the risks that
     programs can cite when seeking an exception to using the metric system. Second, the
     NPD does not provide a mechanism for exceptions to be reevaluated in the event new
     projects are added to an exempt program or improvements are made in the availability of
     metric-measured parts. A previous OIG report 4 recommended that approved exceptions
     should not be “open-ended,” but rather reviewed approximately every 5 years to see if
     conditions underlying the rationale for the exception had changed. Although NASA
     management agreed with this recommendation and stated that the pertinent NPD would
     be modified to “require reassessment of opportunities and rejustification of program-wide
     waivers where still required, at least once every 5 years,” the current version of the NPD
     does not contain this requirement.

     During our fieldwork, NASA’s Chief Engineer told the OIG that he planned to approve
     the Constellation Program’s request for an exception based on the additional costs
     required to implement the metric system, which Constellation Program officials
     estimated at $368 million. These implementation costs arise mainly from the reuse of
     hardware and software from previous NASA programs, including the Space Shuttle, that
     did not use the metric system, thus requiring revisions to engineering documents, test
     plans, test equipment, facilities, training, and operations. According to the Chief
     Engineer and Constellation Program management, the estimated $368 million for metric
     system implementation would be better spent on mitigating higher priority Program risks.

     We found that because the Department of Defense (DoD) has not fully embraced the
     metric system as the manufacturing standard in its projects, and because of the size of its
     contracts, DoD exerts an overriding influence on the U.S. aerospace industry. NASA
     officials stated that until DoD begins converting its major programs to the metric system,
     NASA will not be able to easily transition to the metric system due to a lack of aerospace
     parts designed in metric units.

     Management Action

     We recommended that the NASA Chief Engineer, prior to granting exceptions to the
     requirement to use of the metric system in NASA programs, should ensure that a benefit-
     cost analysis is conducted to determine the short- and long-term impact on the Agency of

     4
         NASA OIG. “Assessment of NASA’s Use of the Metric System” (Report No. G-00-021, February 20,
         2001).



ii                                                                                REPORT No. IG-10-011
OVERVIEW



   not implementing the metric system. In addition, the Chief Engineer should add
   clarifying language to NPD 8010.2E to more clearly define how the “adds unacceptable
   risk” criteria should be interpreted when evaluating whether to request an exception to
   metric system implementation. Further, the Chief Engineer should add language to NPD
   8010.2E requiring a review of approved exceptions every 5 years to ensure the exception
   remains applicable and justified. Lastly, the Chief Engineer should engage DoD and
   other interested Federal agencies to develop a strategy for broader implementation of the
   metric system within the aerospace industry.

   In response to the OIG’s draft report (February 19, 2010), the Chief Engineer stated that
   two NASA policy changes have occurred that directly apply to the recommendations.
   First, the President’s FY 2011 Budget Request for NASA, if enacted, will cancel the
   Constellation Program; the Chief Engineer stated that he has, consequently, placed a hold
   on the Program’s request for a waiver [exception] from using U.S. customary units.
   Second, on March 16, 2010, NASA cancelled NPD 8010.2E when it was superseded by
   NPD 7120.4D, “NASA Engineering and Program/ Project Management Policy,” which
   includes a section addressing the “Metric System of Measurement.” The Chief Engineer
   noted that unlike NPD 8010.2E, the new NPD does not include the exception language
   “adds unacceptable risk.” Nevertheless, the Chief Engineer stated that he concurred with
   our recommendations; specifically, the Agency will clarify the requirement to conduct a
   rigorous evaluation, including a non-quantitative discussion of the costs and benefits, in
   future updates to the NPD; ensure that each new project will be evaluated for its ability to
   implement the metric system; and initiate an engagement activity with the DoD, Federal
   Aviation Administration, Aerospace Safety Advisory Panel, and others to develop a long-
   term metric system implementation strategy within the aerospace industry.

   Management’s planned actions to conduct a benefit-cost analysis and to engage DoD and
   other Federal agencies to develop a strategy for broader implementation of the metric
   system are responsive to our recommendations. However, we do not agree that NPD
   7120.4D adequately addresses our concerns in regard to revising NPD 8010.2E and
   clearly defining exception criteria or ensuring that NASA policy complies with Federal
   law and Executive Orders. Therefore, we recommend that the Chief Engineer establish a
   NASA Procedural Requirements document to ensure that NASA program and project
   managers effectively implement the metric system policy stated in NPD 7120.4D to the
   fullest extent possible. We request additional comments from the Chief Engineer on this
   revised recommendation by April 16, 2010.




REPORT NO. IG-10-011                                                                              iii
MARCH 29, 2010




                                                        CONTENTS

   INTRODUCTION
      Background of Metric System Implementation ______________ 1
      Objectives __________________________________________ 5

   RESULTS
      Constellation’s Request for an Exception Does Not Meet NASA
        Criteria; NASA’s Metric System Implementation Policy Is
        Deficient _________________________________________ 6

   APPENDIX A
      Scope and Methodology _______________________________ 19
      Prior Coverage ______________________________________ 20

   APPENDIX B
      NPD 8010.2E “Use of the SI (Metric) System of Measurement in
        NASA Programs” __________________________________ 21

   APPENDIX C
      National Institute of Standards and Technology (NIST)
        Letter to NASA ___________________________________ 26

   APPENDIX D
      NASA’s Response to NIST _____________________________ 27

   APPENDIX E
      Management Comments ______________________________ 29

   APPENDIX F
      Report Distribution ___________________________________ 33




REPORT NO. IG-10-011                                                 V
MARCH 29, 2010




                                                                                  INTRODUCTION


Background of Metric System Implementation

   The U.S. customary5 system of measurement – based on the foot, pound, and fluid ounce
   – is the most commonly used system of measurement in the United States. The
   International System of Units (SI) 6 or metric system of measurement – based on the
   decimal system – is the most commonly used system of measurement throughout most of
   the world. As shown in Figure 1, the metric system is the official system of measurement
   for all nations except the United States, Burma (Myanmar), and Liberia. Although
   legislation in 1988 designated the metric system as the “preferred system of weights and
   measures for United States trade and commerce” the legislation contained no deadline for
   its adoption.

   Figure 1. Map of the World Showing Usage of Systems of Measurement




   Source: Wikipedia
   Red (or black) represents countries that have not adopted the metric system as their standard system of
   measurement.

   Federal Laws and Regulations. The Metric Conversion Act of 1975 (Public Law
   94-168) declared a national policy of converting to the metric system and established the


   5 The system is also known as the “English,” “British Standard,” and “British Imperial” system of
     measurement.
   6 International System of Units (abbreviated SI from the French le Système international d'unités) is the
     modern form of the metric system. The terms “metric” and “SI” are used interchangeably in this report.



REPORT NO. IG-10-011                                                                                           1
                                                                                   INTRODUCTION



    United States Metric Board to coordinate the voluntary transition, but did not include
    target dates for metric conversion. The Omnibus Trade and Competitiveness Act of 1988
    amended the 1975 Act and declared the metric system to be the “preferred system” of
    weights and measures for trade and commerce in the United States. The 1988 Act
    directed Federal agencies to convert to the metric system to the degree economically
    feasible by the end of fiscal year (FY) 1992. The Act does not include consequences for
    agencies that fail to convert to the metric system.

    In 1991, Executive Order (EO) 12770, “Metric Usage in Federal Government Programs,”
    directed all Executive departments and Federal agencies, including the Department of
    Defense (DoD), to implement the metric system by the end of FY 1992 or by another
    date determined in consultation with the Secretary of Commerce. EO 12770 also directed
    agency heads to establish a process for reviewing proposed exceptions to metric system
    use. Agencies were also directed to list the exceptions granted in their annual report to
    the Department of Commerce along with recommendations for actions to increase the use
    of the metric system. The Federal Reports Elimination and Sunset Act of 1995 (Public
    Law 104-66) repealed the annual reporting requirement but did not repeal EO 12770.
    Similar to the 1988 Act, the EO does not include consequences for agencies that do not
    convert to the metric system.

    While these Federal laws and EOs did not require private companies to implement the
    metric system, many U.S. industrial sector companies and those in the auto industry have
    successfully converted. For example, U.S.-based companies such as Caterpillar, IBM,
    General Motors, DuPont, Black and Decker, and John Deere have responded to world
    market economies and converted most of their products to the metric system. In addition,
    the U.S. scientific community extensively uses the metric system, and NASA’s work
    with its international partners on the International Space Station (ISS) is based almost
    entirely on the metric system.

    However, the U.S. aerospace industry, including companies such as The Boeing
    Company and Lockheed Martin Corporation, have not converted exclusively to the
    metric system because their largest customer, DoD, continues to base some of its new
    programs in U.S. customary units. For example, DoD’s Joint Strike Fighter is being
    fabricated using U.S. customary units. In contrast, in 2006 the Navy commissioned its
    first surface vessel to be fabricated in metric units, the Army Corp of Engineers uses the
    metric system for all new military construction projects, and virtually all DoD grant
    programs are administered in the metric system because the programs are in scientific
    and technical areas in which use of the metric system prevails.

    Evolution of the Metric System at NASA. In 1980, NASA issued NASA Management
    Instruction (NMI) 8010.2, “Use of the Metric System of Measurement in NASA
    Programs,” its first Agency-wide metric system implementation policy, and designated
    the Chief Engineer as the executive responsible for NASA’s metric policy. The NMI
    required each new NASA program or project to thoroughly consider implementing the
    metric system as their standard system of measurement. After passage of the Omnibus



2                                                                          REPORT NO. IG-10-011
INTRODUCTION



   Trade and Competitiveness Act of 1988, NASA engaged in an Agency-wide effort to
   convert to the metric system.

   In the early 1990s, NASA Centers developed metric transition plans, purchased metric
   measurement equipment and machine tools, and provided employees training in use of
   the metric system. NASA also began to assess requirements for space-quality parts
   fabricated in metric units and developed qualifications for commonly used parts such as
   threaded fasteners and fluid fittings.

   In 1991, NASA published NMI 8010.2A, which identified the metric system as the
   “preferred” system of weights and measures for the Agency. NMI 8010.2A required new
   projects and programs to use the metric system unless NASA’s Chief Engineer granted
   an exception and further stated that by the end of FY 1992 the Agency would use the
   metric system to the extent economically feasible in procurements, grants, and business-
   related activities.

   As mentioned previously, the Federal Reports Elimination and Sunset Act of 1995
   repealed the requirement for each Federal agency to submit an annual progress report to
   the Department of Commerce on metric system implementation. In March 2004, in its
   last report to the Department of Commerce, NASA stated that the Agency had
   “substantially achieved the maximum level of SI use that is practical at this time.”
   NASA’s report explained that it continued to use the U.S. customary system because
   “. . . lack of American aerospace industry commitment to the SI system remains as a
   major impediment to substantially increased use of SI at this time in NASA Programs.”

   Previous Office of Inspector General (OIG) Work on NASA’s Use of the Metric
   System. In a 2001 report, 7 we found that NASA had provided managers with minimal
   guidance for using the metric system and that NASA’s use of the metric system varied
   from program to program and from Center to Center. In addition, we found that the
   Agency had not documented its metric system exception process for several years.

   We made eight recommendations in our 2001 report intended to improve the use of the
   metric system within NASA. Among them were recommendations to reexamine the
   Agency’s efforts to convert to the metric system, develop a new approach for converting
   to the metric system, closely monitor technical interfaces between metric and U.S.
   customary units, reinvigorate and document the metric system exception process, and use
   the metric system as the preferred system for interactions with the public.

   NASA management concurred with seven of the eight recommendations. The one
   recommendation with which NASA did not concur was a suggestion that Agency
   “program and functional offices should use SI as the preferred system for interactions
   with the external community in public events, educational materials, and Web site


   7
       NASA OIG. “Assessment of NASA’s Use of the Metric System” (Report No. G-00-021, February 20,
       2001).



REPORT NO. IG-10-011                                                                                  3
                                                                                                  INTRODUCTION



    viewing.” Instead, NASA management said it planned to use its education initiatives to
    further increase the public’s use and knowledge of the metric system.

    Of the seven recommendations NASA concurred with, one was not implemented. This
    recommendation cautioned against granting exceptions to entire programs and, if an
    exception was granted, that it not to be open-ended but rather reviewed approximately
    every 5 years for continuing validity. We make a similar recommendation in this review.

    Evolution of Metric System Use for the Constellation Program. In a March 2006
    study, NASA’s Office of Program Analysis and Evaluation (PA&E) addressed the “Use
    of SI Units for Future NASA Programs.” The study was part of the larger process to
    select measurement units for the Constellation Program. The study stated that, “among
    U.S. space organizations, 8 NASA is in the forefront of converting to SI. NASA’s choice
    appears to be either to continue leading or to follow.”

    In October 2006, at the 57th Annual International Astronautical Congress, the NASA
    Administrator stated that
              [i]t is important that the engineering standard for NASA architecture be specified with
              the international metric, or SI, standard as the base unit of measure, with the English
              units only by exception when it makes sense for NASA to do so. Thus, we hope for a
              high degree of compatibility of interfaces and standard as space faring nations explore
              the Moon, Mars, and near Earth asteroids together.

    NASA Policy Directive (NPD) 8010.2E, “Use of the SI (Metric) System of Measurement
    in NASA Programs,” March 4, 2007, describes NASA’s policy of adopting the metric
    system as the preferred system of measurement. The policy requires the use of the metric
    system in all new programs and projects covered by NASA Procedural Requirements
    (NPR) 7120.5D, “NASA Space Flight Program and Project Management Requirements,”
    March 6, 2007. However, NPD 8010.2E provides a process for programs or projects to
    seek an exception from the Chief Engineer on use of the metric system. According to the
    policy, exceptions may be granted “where use of SI is demonstrated to be impractical,
    adds unacceptable risk, or is likely to cause significant inefficiencies or loss of markets to
    U.S. firms.”

    To comply with NPD 8010.2E, the Constellation Program issued Management Directive
    030, “Use of SI as the Primary System of Measure for the Constellation Program,
    Projects, Systems and Mission” in December 2007. The Directive established the metric
    system “as the standard and default unit of measure of and throughout the Constellation
    Program.” It further states that “A consistent practice of units throughout the
    Constellation Program life cycle is critical to mission success” and stipulates why the
    Program should implement the metric system:
          •   U.S. Federal law directs use of SI;
    8
        Organizations benchmarked included Space and Missile Systems Center (SMC), National
        Reconnaissance Office (NRO), Missile Defense Agency (MDA), and National Oceanic and Atmospheric
        Agency (NOAA)



4                                                                                        REPORT NO. IG-10-011
INTRODUCTION



      •   NASA policy directs use of SI;
      •   SI is simpler and less error prone;
      •   Consolidation across NASA Science and Engineering practices;
      •   Alignment with NASA’s international space partners;
      •   Increased international competitiveness of the U.S. space industry; and
      •   Consistency with U.S. education and skills of next generation space workers.

   The Directive allowed exceptions where mixed use of U.S. customary and metric units
   could be continued for legacy hardware, engineering, or fabrication. However, the
   Directive established the Constellation Program as a leader in the transition of NASA and
   U.S. aerospace companies from U.S. customary to metric units of measure.

   NASA’s basic approach was to manage the Constellation Program in metric units, but
   grant exceptions to certain disciplines steeped in legacy tools, processes, and
   methodologies based on U.S. customary or a mixture of measurement systems. The
   Program approved the use of U.S. customary units of measure for several legacy
   hardware components and designs (as well as associated tooling and infrastructure) and
   allowed users the option to justify the primary use of U.S. customary units with
   additional safeguards in place to reduce technical risk. This philosophy of leaving legacy
   hardware in the measurement units in which it was originally built has been used
   extensively in many industries that have made the successful transition to the metric
   system.

Objectives

   The OIG reviewed the Constellation Program’s draft request to reverse its 2-year-old
   decision to implement the metric system as its standard system of measurement and,
   instead, continue to use the U.S. customary system as the primary and default system of
   measure. Our objective was to assess the basis for the request and to consider the
   possible long-term impact on the Agency if the request was granted, which appears
   likely. See Appendix A for details of the review’s scope and methodology and a list of
   prior audit coverage.




REPORT NO. IG-10-011                                                                            5
                                                                                       RESULTS




                                             CONSTELLATION’S REQUEST FOR
                                                  AN EXCEPTION DOES NOT
                                                    MEET NASA CRITERIA;
                                                   NASA’S METRIC SYSTEM
                                                  IMPLEMENTATION POLICY
                                                             IS DEFICIENT

    The Constellation Program’s draft request for an exception to permit the use of U.S.
    customary system of measurement instead of the metric system does not meet NASA
    policy requirements for granting an exception. Moreover, the request and the process for
    granting approval do not consider the long-term impact of an exception on future Agency
    programs. In addition, NASA’s metric system implementation policy, NPD 8010.2E,
    does not define the phrase “adds unacceptable risk,” thereby leaving the criteria open to
    wide-ranging and inconsistent interpretations. Further, the NPD does not provide a
    mechanism for exceptions to be reevaluated in the event new projects are added to an
    exempted program or improvements are made in the availability of metric parts. Several
    of these issues have Agency-wide impact far beyond the Constellation Program.

The Constellation Program’s Reversal of its Decision to Use SI

    The Constellation Program began formally assessing the cost of implementing the metric
    system within the Program’s various projects by developing detailed implementation
    plans after the release of Management Directive 030 in December 2007. By October
    2008, initial cost estimates for implementing the metric system in the Constellation
    Program totaled $368 million over a 7 year-period, as depicted in Figure 2.




6                                                                        REPORT NO. IG-10-011
RESULTS


                  Figure 2. Constellation Program's Estimated Costs to
               Implement the Metric System, per Fiscal Year (October 2008)

                                 $120

                                 $100

                                 $80
                    $ millions

                                 $60

                                 $40

                                 $20

                                   $-
                                        2009   2010   2011   2012    2013     2014     2015
       Crew Exploration Vehicle
              (Orion)                   $20    $26    $12     $8      $1

       Crew Launch Vehicle (Ares I)     $49    $82    $47    $20      $16      $13      $4
       Ground Operations                $5     $5     $35    $25
   Source: Constellation Program

   Specifically, individual project costs were estimated at $67 million for Orion,
   $231 million for Ares I, and $70 million for Constellation Ground Operations. NASA
   officials attributed these costs to the reuse of hardware and software designs from
   previous flight programs that used U.S. customary units, thus requiring revisions to
   documentation and interface drawings. Of significant concern to Constellation Program
   officials was that more than 50 percent of this cost – almost $200 million – was occurring
   in FYs 2009 and 2010 when their budget was constrained due to operational costs for the
   Space Shuttle and ISS programs.

   In 2008, Constellation began to experience design and technical issues unrelated to
   metric use to the extent that the Program’s overall schedule was projected to be delayed
   by up to 18 months and the Program would require significant additional funding.
   Consequently, the Constellation Program Manager took steps to improve the possibility
   of meeting the Program’s baseline schedule of March 2015 by identifying potential
   deletions, modification, or simplifications of the Program’s technical requirements in
   order to save time and money. One of the items proposed and subsequently approved at
   the Program level was to reverse its earlier decision to implement the metric system.

   In August 2009, the Constellation Program Systems Engineering Control Board approved
   Change Request 000390, “Direct Implementation for Use of a Hybrid System of Units
   and U.S. Customary (in-pound) System as the Primary System of Measure for the
   Constellation Program, Projects, System and Missions,” August 6, 2009, which rescinded
   Management Directive 030 and established use of a hybrid system of U.S. customary
   units with limited use of metric units in Constellation. According to the Change Request,
   Program management “looked at various implementation strategies and worked the


REPORT NO. IG-10-011                                                                            7
                                                                                                      RESULTS



    implementation details to the point of having workable implementation plans [for using
    the metric system] in all projects. However, the cost estimates to achieve these plans
    significantly exceeded the resources that could be made available in the critical years.”
    NASA’s Chief Engineer is required to provide final approval before the exception to the
    requirement that all new NASA programs use the metric system takes effect. In
    conversations with the OIG, the Chief Engineer indicated that he planned to approve the
    Constellation Program’s request for an exception.

Office of Management and Budget (OMB) Recommended Analyses

    OMB Circular No. A-94, “Guidelines and Discount Rates for Benefit-Cost Analysis of
    Federal Programs,” October 29, 1992, recommends that benefit-cost and cost-
    effectiveness analyses be used as management tools when considering changes in
    Government programs or projects. The Circular defines a benefit-cost analysis as

           A systematic quantitative method of assessing the desirability of government projects
           or policies when it is important to take a long view of future effects and a broad view
           of possible side-effects.

    The Circular also states that

           A program is cost-effective if, on the basis of life cycle cost analysis of competing
           alternatives, it is determined to have the lowest costs expressed in present value terms
           for a given amount of benefits. Cost effectiveness analysis is appropriate whenever it
           is unnecessary or impractical to consider the dollar value of the benefits provided by
           the alternatives under consideration.

    The Circular recommends use of these analyses to help meet the goal of promoting
    efficient resource allocation through well-informed decision making. The Circular
    describes four elements of the analyses: policy rationale, explicit assumptions,
    evaluation of alternatives, and benefit-cost verification. Agency officials did not conduct
    any of these analyses when deciding to request an exception to use of the metric system
    in the Constellation Program. Rather, it appears their decision was based exclusively on
    the estimated cost and timetable for implementing metric measurements in the Program.
    Moving forward, we believe that NASA management could enhance its decision making
    process by using the four elements in OMB Circular A-94 to analyze the issue of whether
    to implement the metric system in any of its programs or projects.

Basis for Chief Engineer’s Approval of an Exception

    NPD 8010.2E allows the Chief Engineer to approve exceptions to implement the metric
    system in NASA programs. The criteria requires the Program seeking the exception to
    demonstrate that use of the metric system (1) is impractical, (2) adds unacceptable risk, or
    (3) is likely to cause significant inefficiencies or loss of markets to U.S. firms. The NPD
    also states that “special emphasis shall be placed on maximum use of SI units in
    cooperative programs with international partners.” We analyzed each of these criteria as
    they relate to the Constellation Program’s request for an exception.


8                                                                                      REPORT NO. IG-10-011
RESULTS



   Impractical. The NPD defines conversion to metric units as impractical if the
   conversion “is demonstrated to result in substantial increases in cost or unacceptable
   delays in schedule to obtain SI components.” It is difficult for us to assess whether
   implementation of the metric system would result in a substantial increase in cost because
   Constellation Program management did not conduct a life-cycle cost analysis. While
   Program management estimated that the cost of implementing the metric system for
   Constellation was $368 million, they did not evaluate the costs of not implementing the
   metric system over the life of the program. Furthermore, cost discussions have centered
   on FYs 2009 and 2010, although NASA was projected to spend approximately
   $97 billion on the Constellation Program through 2020. To make a fully informed
   decision, we believe NASA needs to assess the long-term costs of not implementing the
   metric system, because such costs may not be apparent for decades if NASA approves the
   exception and subsequently decides to include international participation later in the
   Constellation Program.

   Beyond the specific exception requested by Constellation managers, NASA needs to
   assess the long-term impacts compared to potential short-term costs when deciding
   whether or not to use the metric system in other new NASA projects.

   Adds Unacceptable Risk. The “adds unacceptable risk” language does not originate in
   Federal law or Executive Order, but rather was added as exception criteria by NASA in
   2004 when NPD 8010.2 was updated. The Constellation Program Manager and the Chief
   Engineer told the OIG that this criterion applies to the risk (acceptable or unacceptable)
   of expending resources on implementing the metric system in a new program versus
   spending those same resources to mitigate other identified risks in the program.

   The Constellation Program’s Management Directive 030, issued December 2007,
   established the metric system as the standard system of measure and stated that use of the
   metric system was simpler, less error prone, and aligned with NASA’s international space
   partners. Therefore, we question the validity of the Constellation Program’s request for
   an exception only 2 years later on the basis that use of the metric system “adds
   unacceptable risk” to the Program.

   The Mars Climate Orbiter mishap (discussed below) highlights the risks of working with
   and converting between the two systems of measurement and having to closely monitor
   components built using both metric and U.S. customary units of measure. Granting the
   Constellation Program an exception from using the metric system could introduce long-
   term risks related to use of components built in U.S. customary units and components
   built in metric units. The long-term risks increase if the Constellation Program involves
   international partners in later years – partners who, to a country, use the metric system.
   We recognize that the Constellation Program is using some legacy hardware built in U.S.
   customary units; however, the Program can minimize that risk by limiting use of that
   hardware and building new components fabricated in the metric system.

   The Chief Engineer and Constellation Program management said they believe that the
   estimated $368 million for metric system implementation would be better spent on


REPORT NO. IG-10-011                                                                            9
                                                                                           RESULTS



     mitigating higher priority Program risks and therefore the Constellation Program’s
     request for an exception meets the intent of the NPD “adds unacceptable risk” criteria.
     However, before waiving the requirement to use the metric system, NASA should
     conduct an adequate life-cycle analysis to determine whether the possible savings
     identified as a result of not implementing the metric system could ultimately cost NASA
     more in the long-term, either in the Constellation Program or its other scientific or
     exploration initiatives, many of which involve international partners or U.S. businesses
     that have made the conversion to the metric system.

     Because the definition of “adds unacceptable risk” in NPD 8010.2E lacks specificity, a
     decision by NASA to grant the Constellation Program’s request for an exception could be
     defended as fitting squarely within the criteria. However, the interpretation offered by
     Constellation Program managers and the Chief Engineer is premised on the notion that
     the “risk” of spending funds to implement the metric system can always be deemed
     “unacceptable” in any budget- or schedule-constrained program in which, from the
     program managers’ perspectives, it would be advantageous to use the funds to address
     other program areas. However, such an interpretation of the risk criteria can lead to
     decisions that while seemingly sensible in the short term (in that funds originally
     designated for metric conversion can be applied to other high-priority issues), may not
     fully consider the longer-term impact on the specific program or broader Agency-wide
     interests. Moreover, given such a flexible interpretation of NASA policy, exceptions to
     the requirement to use the metric system have become the rule. In fact, NASA’s Chief
     Engineer said he could not recall one denial of the numerous requests for exceptions to
     the requirement to use the metric system. Such historic flexibility in applying the criteria
     calls into question NASA’s commitment to implementing the metric system in Agency
     programs and projects to the fullest extent possible.

     Significant Inefficiencies or Loss of Markets. Although the Constellation Program did
     not cite this as exception criteria in their draft request, another exception included in
     NASA policy relates to whether use of the metric system is “likely to cause significant
     inefficiencies or loss of market to U.S. firms.” This criteria was established in the
     Omnibus Trade and Competitiveness Act of 1988 (Omnibus Act) to help alleviate
     concerns of U.S. industries who argued that they might lose market share in the United
     States if they were forced to produce in metric units while foreign firms fabricated
     products in U.S. customary units. Twenty-two years later, this concern is generally no
     longer valid since almost all foreign firms fabricate their parts in metric units.

Support for Use of the Metric System in NASA Programs

     Failure of Mars Climate Orbiter. In 1999, the Mars Climate Orbiter failed to enter
     orbit around Mars because of miscalculations resulting from its attitude-control system
     using U.S. customary units but its navigation software using metric units.

     The following year, OIG initiated a review of the Agency’s use of the metric system.
     Our February 20, 2001, report, “Assessment of NASA’s Use of the Metric [SI] System”


10                                                                          REPORT NO. IG-10-011
RESULTS



   (G-00-021), found that use of the metric system was inconsistent across the Agency. The
   Chief Engineer concurred with seven of the eight recommendations we made in our 2001
   report to improve the use of metric system within NASA in accordance with national
   policy and Agency guidance. One of our recommendations urged NASA to move
   cautiously when considering exempting entire programs from using the metric system:

             Recommendation 6: NASA should be cautious in granting SI waivers to entire
             programs. Some programs which, viewed as a whole, could legitimately waive use of
             SI may contain projects that might best be conducted using SI. If a program is
             granted an SI waiver, use of SI within the program should be permitted where
             appropriate. Any program waivers granted should not be open-ended, but should be
             reviewed after approximately 5 years.

   NASA agreed with this recommendation, and in their official response said it would
   modify NPD 8010.2C to require a review of any waivers at least once every 5 years.
   However, interim revisions of the NPD did not include a requirement for additional
   reviews and the current version of this NPD (8010.2E) does not require a subsequent
   review of exceptions previously granted to NASA programs or projects.

   NASA Program Analysis and Evaluation Study. The 2006 PA&E study, “Use of SI
   Units for Future NASA Programs,” analyzed the selection of measurement units for the
   Constellation Program. The study found that parts fabricated in metric units were readily
   available from U.S. sources with little cost difference compared to parts built in U.S.
   customary units. The study stated that risks would exist in a program that maintains the
   use of U.S. customary units while the economy continues its transition to the metric
   system. While the study did not estimate the cost of transitioning to the metric system,
   PA&E officials concluded and Constellation Program managers agreed that the
   Constellation Program should use the metric system.

   As discussed previously, NASA’s international partners and most scientific organizations
   around the world use the metric system. While the Constellation Program does not
   presently have international participation, the Augustine Committee’s 9 “Review of the
   U.S. Human Space Flight Plans” issued in September 2009 states more broadly that
   “Actively engaging international partners in a manner adapted to today’s multi-polar
   world could strengthen geopolitical relationships, leverage global resources, and enhance
   the exploration enterprise.” In addition, NASA’s Associate Administrator for
   Exploration Systems Mission Directorate said that several planned elements of the
   Constellation Program such as the Lunar Lander and Lunar Surface Systems will include
   the involvement of the international community.

   Finally, the President’s FY 2011 budget released in early February envisions significantly
   expanded international cooperation, and all of NASA’s international partners use the

   9
       In May 2009, NASA chartered the Augustine Committee to identify the best options for the nation to
       pursue for the future of human space flight. The Committee, supported by PA&E, reports to the NASA
       Administrator and the Director of the Office of Science and Technology Policy (OSTP), Executive
       Office of the President.



REPORT NO. IG-10-011                                                                                        11
                                                                                                        RESULTS



     metric system of measurement. NASA’s plans to increase cooperation with international
     partners in future initiatives should merit close consideration during reviews of all
     requests for an exception to using the metric system.

Impact of the Constellation Program Decision on the Agency

     When considering individual exception requests, NASA should consider the impact of its
     decision on Agency-wide operations. NPD 8010.2E states that “NASA shall encourage
     and accommodate increasing the use of SI system of measurement as support capabilities
     expand, shall acquire capabilities to support that goal wherever practical, and shall
     cooperate with the private and public sectors to overcome barriers to use and increase
     understanding of the SI system of measurement.” The Chief Engineer has previously
     approved exceptions for programs or projects because NASA management determined
     that metric system implementation costs were impractical or that funds could be used in a
     more tangible way to fix a known risk.

     Although the projected costs for implementing the metric system in various Agency
     programs initially may appear high, NASA should consider the full life-cycle cost
     benefits prior to granting an exception. Such long-range considerations were not
     evaluated for previously granted exceptions. The Chief Engineer stated that calculating
     long-term benefits for the Constellation Program request was of little value in light of
     insufficient funding in the near term to implement the metric system. We recommend
     that the Chief Engineer not view exception requests as an “all or nothing” decision. One
     option would be for NASA to distinguish between projects within programs, authorize an
     exception to the metric system if warranted, but press forward with metric system
     conversion on other aspects of the program to move the Agency closer to realizing the
     goals of NPD 8010.2E, the Omnibus Act, and EO 12770.

Impact of the Constellation Program Decision on Metric System
  Implementation in the United States

     The National Institute of Standards and Technology (NIST) directs and coordinates
     Federal efforts to implement the metric system in Government agencies and establish the
     metric system as the preferred system of weights and measures for U.S. trade and
     commerce. In response to the Constellation Program’s decision not to use the metric
     system, NIST’s Metric Coordinator in the Weights and Measures Division stated on June
     10, 2009:

            Prolonging the transition to the SI will continue to increase the long term costs to the
            agency, especially for a project that will establish a long lived physical infrastructure
            on the lunar surface. NASA’s original plans to use SI measurements on the moon
            would have immediately brought SI into greater use among thousands of engineers
            and other technical staff within the agency and its contractors as launch vehicles and
            other lunar projects were designed and constructed. The initial decision by NASA
            management would have pulled the SI into greater use in the domestic aerospace
            industry, not to mention the long term impact of increased SI use in the U.S. economy



12                                                                                       REPORT NO. IG-10-011
RESULTS



              resulting from new technological developments from NASA research and other spin-
              offs.

   In addition, on October 16, 2009, the Deputy Director of NIST sent a letter to the NASA
   Administrator (see Appendix C) “to support and emphasize the importance of [NASA’s]
   decision to implement an agency metric policy for Constellation Program operations
   when the United States returns to the moon.” The Deputy Director stated that “[t]he
   successful voluntary U.S. transition to the metric system is a critical factor in the
   competitive success of companies and the country. NASA is a flagship federal agency to
   which other agencies and industry look for leadership and inspiration.”

   NASA’s response to NIST on November 10, 2009 (see Appendix D), while stating that
   limited funds forced NASA to discontinue use of metric units for the Constellation
   Program, held out hope for the future:
              New elements (e.g. Lunar Lander and Lunar Surface Systems), not relying on heritage
              systems, are still in the early requirements and operations concept development stage.
              These projects will have the most involvement with the International community. NASA
              expects to utilize SI based systems for beyond Low-Earth-Orbit in the coming years.

The DoD Influence

   In its last progress report to the Department of Commerce in March 2004, NASA stated
   that the Agency had “substantially achieved the maximum level of SI use that is practical
   at this time.” NASA explained that “. . . lack of American aerospace industry
   commitment to the SI system remains as a major impediment to substantially increased
   use of SI at this time in NASA Programs.”

   During this review, NASA officials repeatedly expressed the opinion that until DoD, the
   dominant entity in the U.S. aerospace industry, completely embraces the metric system,
   NASA would not be able to noticeably influence the industry’s transition on its own. We
   note that DoD and other Federal agencies have made efforts to implement the metric
   system in certain programs. For example, the amphibious transport dock, USS San
   Antonio (LPD 17), built by Northrop Grumman Ship Systems and commissioned in
   January 2006, is the first Navy ship to be designed in metric measurements. In addition,
   Lockheed Martin, the prime contractor for the Constellation Program, entered into a
   contract with the National Reconnaissance Office 10 in 2007 that requires “all supplies,
   components, reports, documentation, or services designed, fabricated, assembled,
   delivered or performed . . . to utilize the Metric System of Measurement.” However,
   other major programs such as DoD’s Joint Strike Fighter, estimated to cost more than
   $300 billion, 11 continue to be designed and manufactured in U.S. customary units.

   10
        Lockheed Martin. Prime Flowdowns for NRO 000-07-C-0107, ACE (ATC076, 2/19/07
        http://www.lockheedmartin.com/suppliers/bu_info/space/site_7742/atc_flowdown/ATC076_2-19-07.doc
        (accessed January 29, 2010).
   11
        Government Accountability Office. “Joint Strike Fighter: Strong Risk Management Essential as Program
        Enters Most Challenging Phase” (GAO-09-711T, May 20, 2009).


REPORT NO. IG-10-011                                                                                           13
                                                                                                    RESULTS



Conclusion

     In our February 2001 report, “Assessment of NASA’s Use of the Metric [SI] System,” we
     stated that

            [b]y law and policy, SI is the preferred system of measurement within NASA. As the
            United States continues its slow transition to the metric system, NASA must decide
            whether it wants to be a leader or a follower in the transition process. Both roles
            come with a cost. If NASA chooses to push forward with the Agency’s use of the
            metric system, near term costs may increase and short-term risk (both to schedule and
            mission success) may rise to some degree. However, if the Agency follows the
            aerospace industry’s slow transition to SI, the protracted period during which NASA
            uses mixed metric and English systems may further increase costs and risks for
            NASA programs.

            NASA is the nation’s most visible science and technology agency, and is involved in
            highly publicized cooperative projects with a world that almost exclusively uses the
            metric system. Certainly an argument could be made that as the nation’s symbol of
            technological prowess, NASA has a role in promoting acceptance and use of the
            metric system. We believe the Agency should reassess its conversion to the metric
            system and determine the most appropriate approach for the Agency to successfully
            transition to SI.

     These words are as applicable today as they were in 2001. Almost 10 years since
     issuance of that OIG report, NASA’s Chief Engineer has approved every request for an
     exception to using the metric system in Agency programs. Moreover, NASA’s criteria to
     evaluate requests for exceptions to using the metric system remains ambiguous and lacks
     appropriate specificity.

     The Constellation Program’s Management Directive 030, issued in December 2007,
     established sound reasons for implementing the metric system; prime among them was
     that the metric system is simpler, less error prone, and aligns with NASA’s international
     partners. We understand that NASA will not fully realize the value of the metric system
     of measurement until this standard is universally adopted by the U.S. aerospace industry.
     We also understand that if the major entities in the aerospace and defense industries are
     not moving consistently toward metric system usage, no Federal agency apart from DoD
     likely will be able to significantly accelerate the transition. However, NASA has the
     opportunity, in the words of the OIG’s 2001 report, to decide “whether it wants to be a
     leader or a follower in the [SI] transition process.”

     Finally, while we believe that Constellation’s draft request does not meet NASA policy
     criteria for granting an exception, we urge the Chief Engineer in this and other cases to
     consider the long-term impacts of any decision to waive implementing the metric system.
     In addition, while NPD 8010.2E does not require NASA to re-examine previously
     approved exceptions to implementing the metric system, we believe NASA may be
     missing significant opportunities to implement the metric system in discrete projects
     because of an exception previously granted to the overall program.



14                                                                                   REPORT NO. IG-10-011
RESULTS



Management’s Comments on the Report and Evaluation of
Management’s Comments

   The Chief Engineer provided comments in response to our February 19, 2010, draft
   report (see Appendix E for the full text of management’s comments). Although we
   carefully considered these comments in preparing this final report, we did not make a
   series of requested changes as described below:

   Management’s Comments on the Report. The Chief Engineer stated that since the
   issuance of the OIG’s draft report, two NASA policy changes have occurred that directly
   apply to the recommendations. First, the President’s FY 2011 Budget Request for
   NASA, if enacted, will cancel the Constellation Program and all its projects. Second, on
   March 16, 2010, NASA cancelled NPD 8010.2E when it was superseded by NPD
   7120.4D, “NASA Engineering and Program/ Project Management Policy,” which
   includes a section addressing the “Metric System of Measurement.”

   The Chief Engineer stated that because of the potential cancellation of the Constellation
   Program, he has placed a hold on the Program’s request for a waiver [exception] from
   using U.S. customary units. In addition, the Chief Engineer requested deletion of several
   references in the report regarding long-term risks of engaging international partners if
   Constellation does not adopt an SI strategy. The Chief Engineer said he believes those
   issues have been adequately mitigated and should be removed from the report since it is
   the intent of NASA to utilize SI units on vehicle projects that have lunar content. The
   Chief Engineer stated that the Constellation Program waiver [exception] was intended for
   the Low Earth Orbit projects, not for projects intended for beyond Low Earth Orbit.

   Evaluation of Management’s Comments. The Chief Engineer stated in his response to
   the draft report that NASA will use the metric system on vehicle projects that have lunar
   content and involve international participation. NASA made the same comments in its
   response to the NIST Deputy Director (Appendix D). However, the Constellation
   Program’s Change Request does not support the position that NASA will use the metric
   system when developing future lunar vehicles. As discussed earlier, Change Request
   000390, as well as the draft exception request sent to the Chief Engineer, states that the
   decision to use U.S. customary units “applies to all constituents and aspects of the CxP
   [Constellation Program], including organizations, personnel, missions, systems, products,
   processes, plans, operations, communications, data, documents, hardware, software,
   contracts, contractors, vendors, and deliverables.”

   Furthermore, in the change request approved by the Constellation Program Systems
   Engineering Control Board, the following statements appear:

      •   The Orion/Ares I stack for ISS and lunar missions will be managed solely in U.S.
          Customary.
      •   The Ares V vehicle will be managed solely in U.S. Customary.




REPORT NO. IG-10-011                                                                            15
                                                                                                   RESULTS



        •   For the Altair vehicle the units of development and operations will be decided . . .
            no later than PDR [Preliminary Design Review] or initiation of procurement
            contracts, whichever occurs first.
        •   For lunar surface systems provide by the United States, the units of development
            and operations will be decided . . . no later than PDR or initiation of procurement
            contracts, whichever occurs first.
        •   For lunar surface operations the environment is expected to be mixed units
            (similar to the ISS Program).

     We could find no language in Constellation Program documents that reflects the Chief
     Engineer’s statement that NASA intends to use the metric system for lunar projects.

Recommendations, Management’s Response, and Evaluation of
Management’s Response

     Recommendation 1. The Chief Engineer should, prior to granting a program or project
     an exception to NPD 8010.2E, consider the results of an OMB Circular A-94 type
     analysis to determine the benefit-cost impact to the program, project, and Agency of not
     implementing the metric system.

     Management’s Response. NASA’s Chief Engineer concurred with the intent of the
     recommendation. The Chief Engineer stated that the requirement for a benefit-cost
     evaluation will be added to future NPD updates, though the Chief Engineer stated that
     “OMB Circular A-94 type analysis is problematic at best and the NPD language will
     allow for a non-quantitative discussion of cost benefit.” The estimated completion date
     for revising the NPD is December 31, 2010.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive. Because NASA cancelled NPD 8010.2E, the recommendation will be closed
     upon verification that the requirement to conduct a benefit-cost analysis has been added
     to appropriate NASA policy.

     Recommendation 2. The Chief Engineer should revise NPD 8010.2E to

        a. adequately define the “Adds Unacceptable Risk” exception criteria and

        b. require individual projects added to complex or long-term programs to
           periodically re-evaluate their ability to implement the metric system.

     Management’s Response. The Chief Engineer stated that on March 16, 2010, NASA
     cancelled NPD 8010.2E when it was superseded by language added to NPD 7120.4D,
     “NASA Engineering and Program/Project Management Policy.” The Chief Engineer
     said because NPD 7120.4D does not include the language “adds unacceptable risk.” he
     considers the recommendation to define the exception criteria no longer valid.
     Management concurred with the second part of the recommendation to periodically re-
     evaluate new projects added to ongoing programs to assess their ability to implement the



16                                                                                REPORT NO. IG-10-011
RESULTS



   metric system. The estimated completion date for implementing this latter
   recommendation is the onset of the next Agency project.

   Evaluation of Management’s Response. Management’s proposed actions are not
   responsive to the intent of the recommendation. We believe that the language concerning
   metric system implementation in NPD 7120.4D does not adequately meet the intent of
   Federal Law and Executive Orders. NPD 7120.4D states:

          1. POLICY (i). Metric System of Measurement. It is NASA policy for all new
          programs and projects subject to NPR 7120.5 [“NASA Space Flight Program and
          Project Management Requirements”] to use the International System of Units
          (commonly known as the Systeme Internationale (SI) or metric system of
          measurement) for design, development, and operations; in preference to
          customary U.S. measurement units, for all internal activities, related NASA
          procurements, grants, and business activities. Exceptions to this policy may be
          granted by the NASA Chief Engineer based on program/project
          recommendations by the responsible Mission Directorate Associate
          Administrator.

          5. RESPONSIBILITY (j). Managers and engineers responsible for the
          realization of a program, project, service, or activity shall:

                 …(9) If subject to NPR 7120.5, identify method for implementing the SI
                 system of measurement prior to completion of the Systems Requirements
                 Review or equivalent milestone during new Program/Project
                 Formulation. Document approved deviations and waivers.

                 (10) Document determinations on where and how the SI system of
                 measurement is to be used in the Program or Project Plan, including use
                 of SI units in related mission support and institutional projects.

   The intent of the first part of our recommendation was to have NASA more clearly define
   the parameters for an exception to Federal Law and Executive Orders to implement the
   metric system. NPD 7120.4D does not identify criteria for granting exceptions to using
   the metric system. The intent of part b of the recommendation was to ensure that blanket
   exceptions were not granted to large programs when smaller projects within that Program
   could logically implement the metric system. Although NPD 7120.4D states that
   exceptions should be documented, it does not state where, how, or who keeps the record,
   or for how long the exception lasts. NASA officials stated in both their response to the
   NIST Deputy Director (Appendix D) and in their response to the draft IG report
   (Appendix E) that the metric system will be implemented on vehicle projects that have
   lunar content since these are the projects in which international participation will most
   probably be involved. Moreover, NPD 8010.2E stated that “[s]pecial emphasis shall be
   placed on maximum use of SI [metric] units in cooperative programs with international
   partners.” However, this language does not appear in the recently approved version of
   NPD 7120.4D. Thus, with NPD 8010.2E cancelled, the requirement to apply special



REPORT NO. IG-10-011                                                                           17
                                                                                         RESULTS



     emphasis to implement the metric system in programs with international participation no
     longer appears in any NASA policy documents.

     Consequently, we recommend that the Chief Engineer create an NPR based on the
     relevant language in NPD 8010.2E and the recommendations contained in this report.
     While NPDs are policy statements that describe what is required by NASA management
     to achieve its vision, mission, and external mandates and who is responsible for carrying
     out those requirements, NPRs provide Agency requirements to implement NASA policy
     as delineated in an associated NPD. We request that the Chief Engineer provide
     additional comments on Recommendation 2 in response to this final report by April 16,
     2010.

     Recommendation 3. The Chief Engineer should engage DoD and other Federal
     agencies to develop a strategy for the long-term implementation of the metric system
     within the aerospace industry.

     Management’s Response. NASA’s Chief Engineer concurred with the
     recommendation. The Chief Engineer stated that he will engage DoD, Federal Aviation
     Administration, Aerospace Safety Advisory Panel, and other relevant Federal agencies
     and interested commercial aerospace parties in an effort to develop a long-term metric
     system implementation strategy within the aerospace industry. The Chief Engineer said
     NASA plans to staff an Industrial Base Liaison by October 2010 to lead this task.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive and the recommendation will be closed following verification of the
     corrective action.




18                                                                         REPORT NO. IG-10-011
APPENDIXES




                                                                          APPENDIX A


Scope and Methodology

   We performed this review from September 2009 through February 2010 in accordance
   with generally accepted government auditing standards. We limited our review of
   internal controls to NASA’s metric system policy and the granting of exceptions. Those
   standards require that we plan and perform our work to obtain sufficient, appropriate
   evidence to provide a reasonable basis for our findings and conclusions based on the
   objectives. We believe that the evidence obtained during this review provides a
   reasonable basis for our findings and conclusions based on our objectives. We performed
   our review at Johnson Space Center and NASA Headquarters.

   To assess the reversal of the Constellation Program’s decision to use the metric system as
   the standard unit of measure and its long-term impact on the Agency, we reviewed the
   following Federal laws, and NASA regulations, policies, procedures, directives, and
   presentations:

       •   “Metric Conversion Act of 1975;” Public Law 94-168, enacted December 23,
           1975; Title 15 of the U.S. Code -- 15 USC 205a;

       •   “Metric Usage in Federal Government Programs,” Executive Order 12770,
           56 Federal Register 35801, July 25, 1991;

       •   Omnibus Trade and Competitiveness Act of 1988 (Public Law 100-418);

       •   OMB Circular No. A-94, “Guidelines and Discount Rates for Benefit-Cost
           Analysis of Federal Programs,” October 29, 1992;

       •   NPD 8010.2E, “Use of the SI (Metric) System of Measurement in NASA
           Programs,” March 4, 2007;

       •   NPR 7120.5D, “ NASA Space Flight Program and Project Management
           Requirements,” March 26, 2007;

       •   Constellation Program Management Directive No. 030, “Use of SI as the Primary
           System of Measure for the Constellation Program, Projects, Systems and
           Missions,” December 17, 2007;

       •   Constellation Program Draft Management Directive, “Use of a Hybrid System of
           Units, and English as the Primary System of Measure for the Constellation
           Program, Projects, Systems and Missions,” no date;



REPORT NO. IG-10-011                                                                            19
                                                                                  APPENDIX A



         •   Constellation Program Control Board Directive No. 000390, “Direct
             Implementation for Use of a Hybrid System of Units and U.S. Customary
             (in-pound) System as the Primary System of Measure for the Constellation
             Program, Projects, System and Missions,” August 6, 2009;

         •   “Use of SI Units for Future NASA Programs,” Office of Program Analysis and
             Evaluation, March 20, 2006;

         •   “Constellation Program Units Directive Workshop,” August 26-27, 2008; and

         •   “Constellation Acceleration Study Report,” December 18, 2008.

     We interviewed personnel from the Office of Chief Engineer, Program Analysis and
     Evaluation Office, Exploration Systems Mission Directorate, Constellation Program,
     Commercial Crew and Cargo Office, and ISS Program. We also interviewed personnel
     from NIST.

     We did not use computer-processed data to perform this review.

Prior Coverage

     NASA OIG and the Government Accountability Office (GAO) have issued two reports of
     particular relevance to the subject of this memorandum. Unrestricted reports can be
     accessed over the Internet at
     http://www.hq.nasa.gov/office/oig/hq/old/inspections_assessments/index.html (NASA)
     and http://www.gao.gov (GAO).

     National Aeronautics and Space Administration

     “Assessment of NASA’s Use of the Metric System” (G-00-021, February 20, 2001)

     Government Accountability Office

     “Constellation Program Cost and Schedule Will Remain Uncertain Until a Sound
     Business Case is Established” (GAO-09-844, August 26, 2009)




20                                                                      REPORT NO. IG-10-011
APPENDIX B




                       NPD 8010.2E “USE OF THE SI
                              (METRIC) SYSTEM OF
                            MEASUREMENT IN NASA
                                      PROGRAMS”




REPORT NO. IG-10-011                                21
              APPENDIX B




22   REPORT NO. IG-10-011
APPENDIX B




REPORT NO. IG-10-011   23
              APPENDIX B




24   REPORT NO. IG-10-011
APPENDIX B




REPORT NO. IG-10-011   25
                      APPENDIX C




     NIST LETTER TO NASA




26           REPORT NO. IG-10-011
APPENDIX D




                       NASA’S RESPONSE TO NIST




REPORT NO. IG-10-011                             27
              APPENDIX D




28   REPORT NO. IG-10-011
APPENDIX E




                       MANAGEMENT COMMENTS




REPORT NO. IG-10-011                         29
              APPENDIX E




30   REPORT NO. IG-10-011
APPENDIX E




REPORT NO. IG-10-011   31
              APPENDIX E




32   REPORT NO. IG-10-011
APPENDIX F




                                                       REPORT DISTRIBUTION

National Aeronautics and Space Administration

   Administrator
   Deputy Administrator
   Chief Technologist
   Associate Administrator, Program Analysis and Evaluation
   Chief Engineer
   Associate Administrator, Exploration Systems Mission Directorate
   Program Manager, Constellation Program

Non-NASA Organizations and Individuals

   Office of Management and Budget
      Deputy Associate Director, Energy and Science Division
          Branch Chief, Science and Space Programs Branch
   Government Accountability Office
      Director, Defense, State, and NASA Financial Management, Office of Financial
         Management and Assurance
      Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

   Senate Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   Senate Committee on Commerce, Science, and Transportation
      Subcommittee on Science and Space
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   House Committee on Oversight and Government Reform
      Subcommittee on Government Management, Organization, and Procurement
   House Committee on Science and Technology
      Subcommittee on Investigations and Oversight
      Subcommittee on Space and Aeronautics




REPORT NO. IG-10-011                                                                 33
Major Contributors to the Report:
   Raymond Tolomeo, Acting Director, Space Operations Directorate
   Lawrence Neu, Aerospace Technologist, Project Manager
   Loretta Atkinson, Project Advisor
   Eugene Bauer, Audit support
   Janet Overton, Editor




REPORT NO. IG-10-011                                                35
                                                                                         MARCH 29, 2010
                                                                           REPORT No. IG-10-011




                                                                                    OFFICE OF AUDITS

                                                                    OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
202-358-1232.


SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001


NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
